                            Closeout of M91020005
         . ,*-.
         *?):?A




                  in the Department




The university1s investigative report reached NSF in   0
It found that no plagiarism and no misconduct had occurred. This
conclusion was based on an examination of one of the twelve
passages that appeared to be copied. This passage was from the
jointly written chapter, and nothing definite could be concluded as
to who was the original author. The conclusion was also based on
a definition of plagiarism that included the intent to deceive.
The investigating committee concluded that there was no intent to
deceive on the part of the subject because she felt she had made a
substantial contribution to the copied material and because it was
in a section of the proposal that only reviewed the literature.
OIG criticized this investigation on several counts. For example,
it did not consider all of the passages that appeared to be copied.
Those apparently copied from the graduate student's dissertation
would not have the problem of co-authorship. OIG disagreed that an
intent to deceive had to be shown in order to demonstrate the
presence of plagiarism. We also noted that plagiarism can occur in
the literature review section of a proposal.
On the other hand, we noted that the passages apparently taken from
the dissertation were too brief to sustain a major plagiarism case,
so that in view of the limited resources of OIG the case was not
worth pursuing. We asked the instit~tion~to    address one question
about a possible conflict of interest on the part of some members
of the investigating committee.          When that question was
satisfactorily answered, the case was closed without making a




June 3, 1992
Copy: AIG-Oversight
     I
                                                        -
-                                                       -
                            Diary Note
                              M91-05
      This case came to OIG on February 14, 1991 and was closed on
June 5, 1992. On December 18, 1992, we were contacted bv
                                                                (the
info&<t)   .- The informant had been contacted by # ! i n -
          (the complainant), who alleged that OIG had been
misinformed about the extent of the plagiarism by
            (the subject) involved in the case, that a member of the
investigating committee had a conflict of interests that should
have precluded her from serving ,on the committee, and that the
complainant had been retaliated against for being a whistleblower,
an allegation that OIG had not previously considered.          These
allegations caused OIG to consider whether to reopen the case.
     OIG has determined that there is no substance to these
allegations. The purpose of this document is to explain why we
have decided not to reopen the case.
     With regard to the plagiarism allegation, OIG examined the
article that the subject co-authored with a postdoctoral fellow,
the postdoctoral fellow's dissertation, and the NSF proposal that
the subject and the complainant co-authored. OIG concluded that
the alleged copying fromthe dissertation (i.e., not fromthe paper
that the postdoctoral fellow co-authored with the subject) was
minimal. We had determined in past cases that comparable copying
did not rise to the level of misconduct. When we initially closed
this case based on the university's investigation report, we
concluded that for OIG the alleged copying appeared not to be
sufficiently serious to constitute a serious deviation from
accepted practice and hence to be misconduct under NSFrs
definieion. We have received no new evidence that calls this
conclusion into question.
     With regard to the alleged conflict of interests, we concluded
that there was no substance to the allegation. Before OIG closed
this case, we received assurances from the Vice President for
Research at the university that the members of the investigating
committee had no disqualifying conflicts of interests.      At that
time, we were aware of certain affiliations that the subject and
certain committee members had in common, and we concluded that
these did not constitute a conflict of interests. After the case
was closed, the complainant informed us that a member of the
investigating committee had been listed as a participating faculty
                            page 1 of 2                      M91-05
member on the subject's National Institutes of Health training
grant. OIG concluded that this shared involvement, which provided
the committee member with no financial benefit, did not constitute
a conflict of interests and did not materially affect our
understanding of the relationship between the subject and the
committee member. We therefore concluded that there was no reason
to question the Vice President's description of the relationship
between the subject of the investigation and the members of the
investigating committee and that we had not closed the case on the
basis of erroneous information from the university.
     With regard to the alleged retaliation, OIG concluded that the
complainant's first allegation of misconduct in science involving
an NSF proposal or award occurred in the spring of 1990. The
subject alleged that she was retaliated against in October, 1989.
Because this alleged retaliation preceded her NSF related
misconduct allegation, it does not involve NSF.




                           page 2 of 2
